                   U.S. Department of Energy
                   Office of Inspector General
                   Office of Audit Services




          Audit Report

1-   &i


          Grounds at the Hanford Site




                                                 October 2006
                                  Department of Energy
                                       Washington, DC 20585


                                        October 18, 2006

MEMOKilNDUM FOR THE SECRETARY

FROM:                       Ajakcl,
                              reg ry   Friedman
                                        .
                            Inspector General

SIJBJ EC-1':                INFORMATION: Audit Report on " Kemediatio~iof the Waste
                            Burla1 Grounds at the Hanford Site"

BACKGKOUN D

In the lc!50's and 19601s,operations at the Department of Energy's Hanfortl. Washington
Site gencr;ltcd large amounts of radioactive waste. tianford cstuhlished waste burial
grounds, designated as sites 6 1 8- I O and 6 18- 1 1 , which received n ~ ~ c l e nwaste
                                                                                     r    from fuel
Libric,ltion research and developn~entactivities during this period. Based on historical
inl<,rniation available about the origin of the waste, the burial gl-ounds, M hich are
approx inlately four mi lcs from the Columbia River. may contain irl-adiateti rue1
rragmcnts. contact and remote-handled transuranic waste, and low-level w'lste, including
some ha~;.~rdous  mixed wastes. Radiation levels at the edge of the burial grollnds have
been found to have been 100 times the annual radiation dose limit per one hour of
exposure.

In 2005, the Department of Energy awarded a "River C o ~ ~ - i d ocontract
                                                                   r"      to, among other
things, rcmediilte the bill-ial grounds at an estimated cost of$136 million; this goal was to
be accomplished by 2012. The ob.jective of our audit was to determine if the Depaitment
had developed a comprehensive cleanup strategy for the remediation of the 618-10 and
6 18- 1 1 bui-ial grounds at the Hanford Site.

RESULTS O F AUDIT

While the Department's intent is to fully remediate the 6 18- 10 and 6 18- 1 1 burial grounds,
the audit disclosed that its planned actions did not address all pertinent issues.
Specifically, we found that the Department's remediation strategy:

         M,ly produce a waste form or waste package that, In some cases. w ~ l not
                                                                                 l meet
         the Department's current acceptance crlterla for- ~nter-imstorage or d~sposal;and,

        Did not reflect the cost to prepare the retr~evedwaste to meet waste acceptance
        criteria for storage 01-f ~ n a disposal.
                                        l

Regai-ding waste acceptance criteria, the Department planned to dispose of some of the
retrieved waste as low-level waste in Han ford's Environmental Restoration Disposal
Facility. However, the Department funded the development of a retrieval technology that
is likely to produce a waste form that consists of both transur-unic waste and spent fuel
fragments which are prohibited at the Disposal Facility, as well as other Department
                   including the Waste Isolation Pilo1 Plant in New Mexico. The Department also
        I I ~. I C S
f ., \L:I.

planned to send rctl-icvccl wastc to Hanl'ord's Central Waste Complex for intcsim stol-age.
klowcvc~.,i l developed a retrieval lechnology that is likely to produce a wastc fo1-m that is
too large LO mcct the Central Waste Complex's acceptance criteria. Similasly, [he
Depal-tmcnt was also ~ ~ n c e r t a iasn to whether the reti-icved waste woulcl comply with tlic
Coniplcx's pel-niit rcclui~-erncntslimiting s-adiation levels.

FLII-t1ie1-,
          i ~ l t h o ~ ~the
                           g hrct~.icvedW ; I S ~ C is likely to I-ec1ui1.eadditional processing to meet the
waste acceptance csiteria, the Department's River Conidor contractor and the Hanfol-d
Site d o not have the capability to treat these wastes for interim storage and final disposal.
Conseclucnlly. all such wastc will have to be tl-eated at other Departmental facilities.
Howevc~.,the Depal-tmcnt's baseline for remediating the burial grounds did not reflect the
substantial additional expense to treat, repackage 01-certify non-compliant waste by other
contl-actol-s and facilities.

T h e audit showed that the Depal-tment had not fully addressed these issues in its planning
                          d i t had not employed u "cradle to gsavc" approach to the
PI-ocess. W e f o ~ ~ nthat
remedialion and disposal of waste in the 6 1 s - LO and 61s-1 1 burial grounds. Specifically,
the Dep;11-ttncntdid not consicler waste acceptance criteria for interim storage and final
disposal in developing technologies to retrieve bill-ial gl-ound waste. It also did not ensure
that its I-etl-ievalstrategy was based on accurate and complete waste chasacterization
inI'ol-mation. Ful-thcr, the Dep~u-tmentdid not ensure that i t had agreement with the River
Cosridor contractor that the scope of work for burial ground remediation included
preparing the waste for interim storage or final disposal before entering into the contract.
As a result, the Depal-tmcnt may incus        to $188 million more than planned to stol-c,
monitor and manage waste retrieved from the burial grounds.

W e ~ n a d crecomrncndat~onsto ensure that these issues are addressed as remed~utionplans
for the 6 18- 10 and 6 18- 1 1 bul-ial grounds evolve.

MANAGEMENT REACTION

Management agl-ecd with the recommendations and is proceeding with efforts to ensure
that the solutions for remediating the burial grounds address the concelns presented in the
repol-t. W e consider management's comments to be responsive to our recommendations.

Attachment

cc: Deputy Secretary
    Under Sec~-et;uyof Enesgy
    Undel- Secl-etary fhl- Science
    Chief of Staff
    Assistant Secretary, Office of Environmental Management
    Manager, Richland Operations Office
REPORT ON THE REMEDIA'TION OF THE WASTE BURIAL GROUNDS
AT THE HANFORD SITE


TABLE OF
CONTENTS


  61 8-10 and 618-1 1 Burial Grounds




  Appendices

   1. ~ I ? l c ~ ~S iCvCc) ~ ~ . me tho do log^ .............................................................................
                            Pand                                                                                                               6

   2. Management Comnents                   ................................................................................................   8
618-10 AND 618-1 1 BURIAL GROUNDS

Background        In 2005. ~ h cDepartment of Energy (Department) contracted with
                  WashingLon Closure tdanford to clean up over 210 square miles
                  acliacent to the Colur1~biaRiver. Part of this effort is to develop a
                  I-ernediationsolution for the 6 18- 10 and 6 18- 1 1 burial grounds.
                  The Department and Washington Closure Hanl'ord are curl-ently
                  assessing various methods for exhuming these bur-ial g~.ounds,
                  including the potential implementation of the two nicthods funded
                  by the Department's research and development progl-am to retrieve
                  the waste: sleeve encapsulation and in-situ vilrification.

                  The waste in the burial gl-ounds was disposed of in trenches,
                  vertical pipe units, and caissons. The vertical pipe units were
                  constructed using five 55 gallon drums welded end-to-end and
                  were placed in the ground with approximately five to ten feet of
                  earthen cover. The caissons are 10 feet long with an 8 foot
                  dian1ctc1-,have angled chutes for waste entry. and were buried with
                  15 feet of earthen cover.

                  Under the Hanford Federal Facility Agrccnient and Consent Order
                  (Tri-Party Agreement) with the State of Washington and the U.S.
                  Envil-onmental Protection Agency, the Department is to submit a
                  I-epo1-tin March 2007, to the Environmental Protection Agency that
                  includes a work plan and schedule for remediating the burial
                  grounds. The plan is required to be consistent with Waste Isolation
                  Pilot Plant Waste Acceptance Criteria for remote-handled
                  tl-ansuranic and mixed tl-ansuranic waste. Richland management
                  asserts that the Design Solution. 01-iginallyscheduled to be
                  delivel-ed to the Depar-tment on September 30, 2006, by
                  Washington Closur-e Hanford, is expected to satisfy the intent of
                  this milestone.

Remediation       Despite ongoing efforts, the Department does not yet have a
Strategy          comprehensive cleanup strategy for remediating the 6 18- 10 and
                  6 18- 1 1 burial grounds. The Department selected and funded
                  research for waste retrieval technologies that are unlikely to
                  produce waste Forms or packages that meet the Department's waste
                  acceptance criteria for interim storage or final disposal.

                  Specifically, the Department funded research on two technologies
                  that have significant vi~lnerabilities.

                         'The .vleclve c~zcrip~si~lrttiorz
                                                       approach is Ii kely to produce a
                          final package that is nearly 27 feet long with a diameter of
                          nearly 4 feet. This waste product does not meet the Waste
                          Acceptance Criteria at the Central Waste Complex since the
                          largest item that is acceptable is a 10 foot by 1 I foot box.



Page 1                                                             Details of Finding
                            Additionally, thc Ccntl-al Waste Complex is only permitted
                            to store waste that has been shielded down to contact-
                            handled racliation levels. The vertical pipe units are
                            believed to contain both contact-handled and remote-
                            handled tl-ansuranic waste as well as irradiated f ~ ~ c l
                            fragments, and the Department does not yet know the size
                            or amount of shielding [hut will be rccluired to safely stol-e
                            the waste at the Central Waste Complex.

                            If waste from the burial grounds cannot be disposed of at
                            the Envii-onmental Restoration Disposal Facility, then i t
                            will have to be treated and repackaged in preparation for
                            off-site disposal. However, Washington Closul-e Hanford
                            does not have the capability to treat these wastes.

                            The irl-.situ ~)itrj/i'c.cltiorzretrieval approach of melting the
                            waste is likely to produce a waste stream recluiring the
                            Department to develop a new disposition pathway.
                            Specifically, the melted waste will not meet the waste
                            acceptance criteria of the Department's existing disposal
                            facilities. While the contl-actor-asserts that the final product
                            would result in low-level waste that could be disposed of at
                            the Environmental Restoration Disposal Facility. the new
                            waste stream will consist of transuranic waste and spent
                            fuel fragments which are prohibited from being disposed at
                            the Facility. Additionally, spent firel fragments are not
                            authorized for disposal at the Waste Isolation Pi lot Plant.

                     As an alternative to sleeve encapsulation and in-sit11vitrification,
                     the waste could be treated at other Hanford facilities such as the
                     Waste Repackaging and Processing Plant, the T-Plant, or the futul-e
                     M-9 I Facility. Nevertheless, the Department's cost baseline does
                     not include the cost for treating, repackaging, and certifying the
                     waste for offsite shipment. Specifically, the Dcpal-tment's pro-ject
                     cost baseline estimate for remediating the burial grounds is based
                     on the $136 million River Corridor Closure Contract that limits the
                     disposal options to the Environmental Restoration Disposal
                     Facility or- interim storage at the Central Waste Complex.

Project Management   The Department has not fi~llyintegrated and coordinated the plans
                     to remediate and dispose of the waste in the 6 18- 10 and 6 18- 1 1
                     burial grounds. Specifically, the Department has not ensured that:

                            Retrieval technology development efforts fully considered
                            waste disposal I-equirements;




Page 2                                                                 Details of Finding
                 Waste chiu-actel-isticsand their impact on eventnill disposal
                 OF I-etrievcdwaste Forms were Fi~llyi1nde1-stoocl;and,

                 Contract work scope For remediating the burial grounds
                 was fillly agreed to by Washington Closiu-e Hanfo1.d. The
                 Depai-tment is currently working to ~.esolvethis dispute
                 with its contl'actor, Washington Closur-e Han l'ord.

                               Technology Development

         The Department did not ensure that retrieval technology
         development el'fnrts fillly considel-ed whether the waste forms
         produced by the technologies could be disposed of at existing
         disposal facilities such as the Waste [sol~~tionPilot Plant. The
         technology dcvelopment contracts only addressed demonstration of
         retrieval technologies and did not inclilde the requil-ement that
         resulting waste hi-ms be consistent with disposal recl~~irement!:.
         Consequently, the developed technologies are likely to produce
         waste forms that do not meet disposal facilities' waste acceptance
         criteria, and may recluire treatment and repackaging bel.or-e they
         can be certified for disposal.

                                Waste Characterization

         Additionally, in selecting retrieval technologies, the Depai-tment
         did not fully consider the impact O F the mjuste characteristics on the
         disposal of the retrieved waste form. As of December 7005, the
         Department had not taken all available steps to locate historical
         records detailing characterization information relating to the waste
         in the burial grounds. The existing recol-ds, which have been
         recreated from interviews and using process knowledge based on
         the origin of the waste, are limited and often contradictory.
         Because of incomplete characterization data, the Department
         funded the development of retrieval technologies that could ~csult
         in a waste Form that may not meet the waste acceptance criteria of
         existing disposal I'acilities without further processing. The Office
         of Environmental Management acknowledged in the Frhrziary
         -3002 Top-to-Bottorrl review that uncertain work scope results when
         contamination levels are not known or understood, or vulnerable
         technologies are selected.

         During our audit, the contractor initiated a document recluest and is
         cui-rently conducting an extensive document search in an attempt
         to locate characterization information. Nearly 3,000 radiation
         survey records have been located and are currently being reviewed.




Page 3                                                     Details of Finding
                   Howcvcl-. the records provide infm-mution on I-adiationdose levels,
                   but do not provide specific inuor-mation on wastc isotopes that were
                   disposed of at thc burial grounds.

                                          Contrnctor Work Scope

                   Further, the Department and Washington Closul-e Hnnfosd do not
                   agl-ee on the overall scope of work for the burial grounds.
                   Washington Closul-e Hantord assel-ts that the Depal-tment was
                   aware that its contract PI-oposalonly called for the retrieval and
                   transportation of the waste to the Central Waste Complex, and did
                   not include the costs to treat anci repackage the waste to allow i t to
                   be shipped to the Waste Isolation Pilot Plant. Washington C l o s ~ ~ r e
                   Hanford assumed that the treatment and I-epackagingof the waste
                   was to be a Government Fu~nishedService. 'The Department does
                   not agrec and responded that the costs associated with waste
                   packaging, shipping. t reatment, and storage/disposa! are to be
                   borne by Washington Closure Hanford. As previously noted, the
                   Department's baseline for I-emediatingthe burial grounds is based
                   on the Washington Closure Hanford contract and does not contain
                   aclditional costs for further processing of the waste for disposal.

Additional Costs   As a result, the Department may incur approximately $188 million
                   more than planned to store, monitor, and manage waste retrieved
                   1'1-omthe burial grounds. Specifically, it could cost the Department
                   LIPto $I 88 million more to treat, repackage, and certify retrieved
                   waste to meet the waste acceptance criteria. Although the
                   Department is basing its current $136 million baseline cost
                   estimate (or remediating the burial grounds on the Washington
                   Closure Hanford contract, a 2001 Record of Decision included the
                   cost for PI-cparingthe waste For disposal, and i t estimated (he cost
                   to be $321 million to fully remediate the burial grounds.


RECOMMENDATIONS    We recommend that the Assistant Secretary for Environmental
                   Management:

                         1 . Manage the I-emediation of the 6 18- 10 and 6 18- 1 1 burial
                             grounds as a "cradle-to-grave" project by integrating and
                             coordinating retrieval technologies with waste disposal
                             requirements; and,

                        2. Revise the Department's baseline to accurately quantify
                           the risks associated with remecliation of the 6 18- 10 and
                           618-1 1 burial grounds from the "cradle-to-grave."




Page 4                                                             Recommendations
               -       -       -                                     -    -    -




               We recommend that the Manager, Richland Operations Ofl'ice:

                    I . Continue to conduct I-esearch on historical rccortls
                        containing waste characterization intornlation ['or the
                        waste in the burial grounds and incorporxte t-esults into
                        the Design Solution.

MANAGEMENT     Management agreed with the I-ecomrnendations in the draft report
REACTION AND   and expects that the Washington Closure Hanford Design Solution,
AUDITOR        to be delivered to the Department by January 2007, will 171-ovide
COMMENTS       the information necessary to address ~.ecornmendations1 and 2.
               The design solution will allow the Office of Environmental
               Management to more fully develop a "cradle-to-grave" prqject
               management approach for remediation of the 6 IS- LO and 6 IS- 1 1
               burial gl-ounds. With I-egardto the I-ccommendation made to the
               Richland Operations Office, the historical records reseal-ch is
               continuing and the results will be incorporated into the Design
               S o l ~ ~ t i o nThe
                                 . Office of Environmental Management stated that
               they will not complete the actions necessary to fully address the
               recommendations any earlier than July 2007.

               Management's comments are responsive to O L I recomlnendations
                                                                ~
               and arc included in their entirety in Appendix 2.




Page 5                                     Recommendations and Comments
Appendix 1


OBJECTIVE     '[he objective o f this audit was to determine i f the Department of
              Energy (Depar-tment ) has developed a comprehensive cleanup
              strategy for the remediation of thc 6 18- 10 and 6 18- 1 I burial
              grounds at the Hanford Site.


SCOPE         The audit was per-formed from September 2005 to May 2006 at the
              Hanford Site in Richlirnd, Washington. The scope of the audit
              covcl-cd the remediation strategy of the 6 18- 10 and 6 l8- 1 I burial
              gsounds managed by the Richland Operations Office.


METHODOLOGY   To accomplish the auciit objective, we:

                      Obtained and reviewed planning documents for
                      I-eniedi~ltion
                                   of the 300-FF-2 Operable Unit, wh~ch
                      includes the 6 18- 10 and 6 18- 1 1 burial grounds;

                       Researched Federal and Departmental regulations;

                      Reviewed f~ndingsfrom prim aud~treports regarding
                      remediation of burial grounds;

                      Analyzed the Washington Closure Hanfol-d contract with
                      the R~chlandOperations Office;

                      Evaluatcd the Accllri.sitiotl Plurz jilt- fi~clzrtolog)~
                      Llevelopttiertr Itz-Situ Tt-(ir~~~ir(ltlic
                                                               W L ~ . \Llt~lir~ee~ti~rl
                                                                        ~C         (inel
                      W~lsteRr.rrzovcr1 ~ l Hclrzftlrd
                                             t         618-10 c~ncl618-11 Bzlri~ll
                      Grozlrlds, January 23, 2003, issued by the Office of
                      Science and Technology;

                      Analyzed the Department's contract with Nol-th W ~ n dInc.
                                                                            ,
                      managed by the National Environmental Technology
                      Laboratory and conducted under the Office of Science and
                      Technology; and,

                      Interviewed key personnel in the Richland Operations
                      Office, Office of Science and Technology, and the Office
                      of Environmental Management.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Wc asscssed internal controls established under the Government
              Performance and Results Act of I993 related to the Richland


Page 6                                      Objective, S c o p e , a n d Methodology
Appendix 1 (continued)


                    Operations Of'l'ice's planning for remediation 01' the 618- 10 anci
                    6 18- 1 1 burial gt-o~lndsat the t3anEor.d Site. Because our review
                    was liniitcd, it would not necessarily have ciisclosed all internal
                    control dct'iciencics that may have e.xisted at thc time of OLII. ;~udit.
                    We did not conduct a tcliability assessment of computer-131-occssed
                    data bccausc only a limited amount of cornputel.-proccssed data
                    was ~lsedduring the audit.

                    We held an e.xit conference with management on Scpternbcr 13,
                    2006.




Page 7                                           Objective, Scope, and Methodology
Appendix 2




   Memorandum




Page 8          Management Comments
Appendix 2 (continued)




Page 9                   Management Comments
                                                                     IG Report No. UOEIIG-0743

                           CUSTOMER RESPONSE FORM

Thc Office of Inspector General has a continuing interest in improving the i~sefi~lnessof its
producls. Wc wish to make our reports as responsive as possible to our customers' rccluit-ements,
and, thel-efore, ask that yo~1consider sharing yoi~rthoughts with US. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following cluestions i f they are applicable to you:

I . What addilional bac kground information about the selection, scheduling, scope. or
    PI-occdu~.cs
               ofthe inspection would have been helpful to the reader in understanding this
    report !'

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions'?

3. What fol-mat,stylistic, or organizational changes might have made this report's overall
   message moi-e clear to the reader?

4. What additional actions co~lldthe Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any cluestions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail i t to:

                               Office of Inspector General (IG- 1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customel- Relations

[f you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reporls as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically thro~ighthe Internet at the
                                             following address:

                   l1.S. Department of Energy Office of Inspector Cieneral Homc Page



       Y O L I Icornmcnts w o ~ ~be
                                 l d appreciated and can be provided on the C~lstornel-Response Form
                                              attached to the I-epor-1.
